No. 20-480

IN THE

'upremc Court of the ?finite) ii§tateO
DAVID BABCOCK,
Petitioner,
v.
KILOLO KIJAKAZI, ACTING COMMISSIONER OF
SOCIAL SECURITY,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

REPLY BRIEF FOR PETITIONER
DAVID BABCOCK

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,452 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 8, 2021.

ogan
Cohn Case
Wilson-Epes Printing Co., Inc.

